Office of the

FEDERAL PUBLIC DEFENDER
NORTHERN DISTRICT OF FLORIDA
RANDOLPH P. MURRELL
Federal Public Defender
Attorneys
Terri L. Backhus
Lauren Cobb
Joseph F. DeBelder
Sean Gunn
Timothy C. Halstrom
Darren J. Johnson
Thomas S. Keith
Randall S. Lockhart
Linda McDermott
Megan Saillant
Richard M. Summa
Elizabeth L. Vallejo

Gainesville Office
101 S.E. Second Place
Suite 112
Gainesville, FL 32601-6591
(352) 373-5823 Fax: 373-7644

Pensacola Office

Reply to Tallahassee Office
227 N. Bronough Street, Suite 4200
Tallahassee, FL 32301-1300
(850) 942-8818 Fax (850) 942-8809

3 W. Garden Street
Suite 200
Pensacola, FL 32502-5654
(850) 432-1418 Fax: 434-3855

January 14, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Wali Ross v. United States, No. 20-5589

Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioner in the above-captioned case respectfully
requests that the Court delay distribution of the petition for a writ of certiorari for 7 days. The petition
would currently be scheduled for distribution on January 21, 2021. If this Court were to grant the
requested 7-day delay, distribution of the petition would be scheduled instead for January 28, 2021. The
conference date, February 19, 2021, would remain unchanged.
Petitioner requires the additional time to file its reply due to the logistical difficulties and dislocations
caused by the COVID-19 pandemic, including the need to coordinate among multiple law offices each
operating remotely. Respondent does not object to the delay in distribution.
Very truly yours,
s/Richard M. Summa
Counsel for Petitioner Wali Ross
cc: Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

